No. 20-7084

tbe 6upreme (Court of tbe Elniteb AAate5

Mindy Hill, Petitioner
U.

Google, LLC et al, Respondent

On writ of Certiorari

To the DC Appeals Court

PETITION FOR REHEARING

RECEIVED
MAY 1 0 2021 k
whoolcio-saltis.

Mindy Hill
1723 27th Street SE #302
Washington, DC 20020

DECLARATION IN COMPLIANCE

In accordance with 28 U S C § 1746, I declare under penalty of perjury that the
foregoing is true and correct. Executed on May Qh , 2021.
District of Columbia
Signed and sworn to (or affirmed) before me on
(D
utm_k_
by

fL

Kristin Cherise Bovell, otarY

IC

My-commission expires September 30, 2024.

10,

•
Seal

g

° * ciia •
0.

t•

KRISTIN CIARISE BOVE14
NOTAMI PUSLIC DISTRICT OF COLWAR-1.
My Comissi.on Expims tqtertat 30, 2024

d

4C

•

•.. el•
•

•
I' •
• • • • ,,4%
.7 ,9
%.• ,It #
0‘1D
%

A-

No. 20-7084

31n tbe 6upreme Court of tbe Eniteb iptateg

No. 20-7084
Mindy Hill, Petitioner
v.
Google, LLC et al, Respondent

ON WRIT OF CERTIORARI
TO THE DC APPEALS COURT

PETITION FOR REHEARING
Pursuant to Rule 44 of this Court, Mindy Hill, American journalist, petitioner,
hereby respectfully petitions for rehearing of this case before a full nine-Member
Court.
I.

If America is the great experiment, then perhaps we could have very
well arrived at the greatest test of the 1st Amendment, 5th Amendment,
and the 14th Amendment Section 1, which also involves a challenge of
Federal Rules Civil Procedure Rule 1, on behalf of respondents
disregard in any good faith and fairness effort since December 19, 2016
for users information, voice information, privacy information,
information collection, information management, storage, and machine
learning algorithm operating systems with particular critical concern
of the preexisting simple technical glitch

No. 20-7084

2
close captioning "What's up DC Bitch Girl Maybe gel with," with intervening
circumstances (Hill Trans. 244: 19-22) substantial which brings forth
petitioner for rehearing and given much consideration (Hill Trans. 228: 7-21)
that the March 25, 2021 schedule conference also aligned with a Congress
holds a hearing on "Disinformation nation: Social media's role in promoting
extremism and misinformation" featuring Mark Zuckerberg, CEO of
Facebook, Sundar Pichai, Chief Executive Officer Google, and Jack Dorsey
CEO of Twitter by granting the facts that Ms. Hill filed a complaint (Hill
Trans. 234: 20-22) in October 2017 against Google Inc. et al, YouTube Inc. et
al alleging defamation, negligence, and libel through YouTube closed
captioning feature with certain language as a living being she rationally with
common sense asserts and deems a level of concern (Hill Trans. 241: 12-22,
242: 1-2) which lingers on regarding words that were automatically
transcribe on Google's YouTube voice recognition closed captioning software
systems (Hill Trans. 209: 9-14) when these were not spoken words (Hill
Trans. 216: 2-5) (Freeman Trans. 92:4-12). Sure petitioner didn't voluntarily
sign the YouTube Terms of Service, she skimmed then scrolled the computer
screen (Hill Trans. 203:1-22; 207:1-15; 247:7-22; 248:10-18; 249:3-5, 17-22;
250: 1-3; 251: 6-10), then clicked on the options available by using a mouse
not electronic signature § 28-4901 (8), which was suitable for utilization of
services in good faith. D.C. Law §31-2231.05 Defamation, no person shall

No. 20-7084

3

publish disseminate or circulate. Libel, a defamatory statement expressed in
a fixed medium, esp. writing but also a picture, sign, or electronic broadcast,
[Black Law Dictionary, 5th pocket edition]. (Hill Trans. 238:12-22; 239:1-5).
Although Google's YouTube has a material breached their contract in
maintaining and managing accurate information DC Code§ 28-3904.(d) (e) (e1) (f) (f-1) (j). Furthermore, YouTube is in violation with D.C. Law §341260.01 Consumer Protection (a) (b) D.0 Law § 34-1206.02 Protection of
privacy (1) (2) (b) (1) (2) (3) (4) (5 c) (1) (2 d). (September Trans. 4:14-23)
United States v. Detroit Timber & Lumber Co., 200 U.S. 321, 337. In
Facebook, Inc. v Duguid et al this case turns on whether the clause "using a
random or sequential number generator" in § 227 (a) (1) (A) modifies both of
the two verbs that precede it ("store" and "produce"), as Facebook contenders,
or only the closet one ("produce"), as maintained by Duguid. The most
natural reading of the text and other aspects of § 227 (a) (1) (A) confirm
Facebook's view. (Hill Trans. 223:7-22; 224:1-3).
Along with a duty to provide accurate closed captioning in accordance to the FCC
regulation, the right to know what system operating functions would perform an
error Moses v. Burgin, 445 F. 2d 369 (1971), from a simple technical glitch is the
possibility for a starting point in a good faith effort in Google's relentless efficacy
and fairness and use of consumer practices while holding all the world's data in
their operating systems. An error is an assertion of belief that does not conform

No. 20-7084

4

to objective reality; a belief that what is false is true or that what is true is false;
mistake. Meanwhile, Google upholds the belief that "What's up DC Bitch girl
maybe gel with,"is an error. However, with consideration to common since, an
error would constitute as "goggle" if the word "Google" was spoken and
transcribe for automatic closed captioning. The duty established by parties in a
contract starts from the time the contract is signed/acknowledged by both
parties. The Restatement (Second) of Contracts (§ 205) and the Uniform
Commercial Code (§ 1-203) recognized as a general principle of contract law that
the parties to a contract must perform their duties thereunder in good faith.
Burton, Breach of Contract and the Common Law Duty to Perform in Good
Faith, 94 Harv.L.Rev. 369 (1980). Defendants argue that they acted in good
faith by providing a platform for their users to share their video content with the
public in an almost error free environment that they constantly try to perfect
through the use of general updates to their system. Also, Defendants argue that
the YouTube Terms of Service and the YPP Terms impose no duty to provide
captions free from error. However, they data manage millions of accounts for
users subscribed to YouTube and YPP. While it is admirable that Defendants
seek to perfect their services they still should be held accountable when they fall
short of that goal and cause harm to the users of their service. A service
provider just like a manufacturer has a duty to warn its users of foreseeable
risks associated with the use of the product and any failure to warn may give

No. 20-7084

5

rise to a cause of action sounding in either negligence or strict liability. Russell v.
G.A.F. Corp., 422 A.2d 989, 991 (D.C. 1980), East Penn MFG. Co. v. Pineda, 578
A.2d 1113 (D.C. 1990) Defendants argue that they did not promise error free
closed captioning services and that they warn their users through the language
in its terms of service of potential errors, mistakes, or inaccuracies of content
when using the services, they provide such as video playback and closed
captioning. Defendants point to the fact that Plaintiff has higher knowledge
base than their typical user because of the A+ certificate she earned from the
University of the District of Columbia and has uploaded 249 videos to her
account. (Hill Trans. 224: 4-19) These experiences, they essentially argue make
her an experienced user and as a result allows them an exception. Under the
Restatement (second) of Torts, section 338 comment k, a user having special
experience, knows that the condition involves danger and has no reason to
believe that those who will use it will have such experience as will enable them
to perceive the danger, he is required to inform them of the risk.

No. 20-7084

6

Case law defines this as the experienced user exception. In circumstances where
the danger is less than obvious, the user of a product may rely on the supplier's
superior knowledge of latent dangers, unless his own special experience enables
him to perceive those hidden dangers himself. East Penn MFG. Co. v. Pineda,
578 A.2d 1113 (D.C. 1990) Plaintiff fully acknowledges her education and her
usage of defendant's platform but at no time in her response to Defendants
Interrogatories, Request for Admissions, or deposition questions has she ever
stated that she was familiar with the inner workings of Defendants closed
captioning system.
YouTube's voice recognition closed captioning software can cause adverse
reaction attacking their credibility withstanding in the community, and damage
the human traits, character, personality and genetic makeup of American
citizens as a whole, and in this case an American journalist (Hill Trans. 270: 122; 274: 2-22) Negligence Rule ( 1914) Commercial Law. The principle that if a
party's negligence contributes to an unauthorized signing or a material
alteration in a negotiable instrument, that party is estopped from raising this
issue against later parties who transfer or pay the instrument in good faith.
Machine learning may not recognize defamation as malicious groundless harm
to the reputation or good name of another by the making of a false statement to
a third person. (Freeman Trans. 90: 2-22; 91: 1-8). In accordance with D.0 R 284909 (1) (2) (A) (B), Google's YouTube Service still failed to provide a change in

No. 20-7084

7

the ERROR ultimately resulting in a monopolization D.C. R 28-4503 (Hill Trans.
239: 1-5, 12-22). Now petitioner remains simple technical glitch out in a false
light despite the Journalism Competition and Preservation Act of 2019 (Hill
Trans. 271: 6-12). Today, Congress has great care and consideration for the 4th
establishment, however petitioner is still unable to earn advertising revenue
(Hill Trans. 114: 6-22, 115: 1-22) (Freeman Trans. 131: 7-22).
(Hill Trans. 223: 18-22, 224: 1-22, 240: 5-17, 250: 11-22) According to the
Subcommittee Senate on Privacy Technology and the Law Senate April 27th
hearing "Algorithms and Amplification: How Social Media Platforms' Design
Choices Shape Our Minds," YouTube's Government Affairs and Public Policy
Americas, Alexandra N. Veitch gave witness testimony :
"How YouTube thinks about algorithms, YT is a multifaceted video-sharing
platform enjoyed by billions of consumers and creators. Algorithms are a set
of instructions that direct a computer to carry out a specific task. An
algorithm can be simple- asking a computer to calculate the sum of two
numbers- or extremely complex such as machine learning algorithms that
consistently refine their ability to accomplish the goal for which they were
programmed. An algorithm can manage a few inputs or nearly limitless
inputs, and they can do one thing or perform a number of functions at once.
Nearly everything that people do today is made possible by algorithms."
In accordance with Rule 33 of SCR of Civil Procedure plaintiffs second set of
interrogatories to defendants Google Inc. et al and YouTube Inc. et al, submitted
July 22, 2018 the term algorithm means any computer code written to locate
content on YT's website including but not limited to video, notices, and user
accounts. Automated closed captioning means the default closed captioning

No. 20-7084

8

setting afforded to all videos upload

ed to YT's website by its account hol

ders.

HTML, the term HTML means the
hyper-text markup language used to
create a
webpage. Source code, the term sou
rce code means the text listing of com
mands
to be compiled or assembled into an

executable computer program. Techno

logy,

term technology should be interpre
ted broadly and includes but is not
limited to
any software, microchips, patches,
and upgrades introduced to YT ope
rating
system (Hill Interrog. 22-35)
On July 28, 2018 in the law office of
oath was asked if done by machine

Harris Wilshire Grannis, Ms. Hill und

er

or human, (Hill Trans. 222: 5-22, 223

: 1-2)

(Freeman Trans.91: 9-14)

II.

Petition should be granted rehearing
based on honest good faith effort by
petitioner to mitigate this pressing
matter that keeps getting suffocated
in
lack of accountability (Hill Trans. 245
: 1-22, 246: 1-22, 272: 7-22). Along
with bill's flying all over Washingto
n such as B23-0147 Office on Deaf
and
Hearing Establishment Amendment
Act of 2019 held October 15, 2019
Hill witness testimony on 93. The tria
l court issued order for petitioner
(Feb Trans. 18: 5-25, 19: 1-20) On
Sep

tember 22, 2017 at a pre-trial

conference hearing Judge Brian F.
Holem

an give Plaintiff leave to file an

amended complaint against Defend
ants. Plaintiff files the Amended Pro
Se complaint with the DC Superior

Court on October 6, 2017. On Octobe

r

No. 20-7084

10

See:
https://www.dccourts.gov/sites/default/files/mattersdocs/General%200rder%20pdf/Supplement-to-General-Order-JudgeHoleman.pdf
Your honor's Supplemental General Orders clearly state that any motions
filed in cases before your honor are subject to page limits. Specifically,
Memoranda of Law that exceed 10 pages in length are discouraged and
memoranda of law that exceed 20 pages are prohibited without leave of court.
Failure to comply with the requirements set forth in the General Order will
result in summary denial of the motion without prejudice. Defendants
Memorandum of Law in its motion for summary judgement is in direct violation
of your honor's orders as it is a total of 33 pages in length. Furthermore, there is
no proof that Defendants received leave of court to file a memorandum of law
over the length suggested in this court's supplemental order. As a result,
defendant's motion should be dismissed. Rules and court orders are there to
ensure that the rights of all litigants, whether plaintiff or defendant, are
protected during the administration of any case. "Noncompliance with court
orders and rules may cause the system to bog down and may adversely affect
other litigants." Perry v. Sera. 623 A.2d 1210, 1219 (D.C. 1993), Dobbs v.
Providence Hospital 736 A.2d 216 (D.C. 1999) Defendants have violated your
honor's supplemental order twice during the course of this litigation as

No. 20-7084

11

Defendant's Motion for Limited Summary Judgement filed July 2, 2018 contained a
memorandum of law that was also in excess of 20 pages without any proof of leave
of court. Currently, Google's former legal Counsel Roy L. Austin is at Facebook.
III. The petition for rehearing should be granted considering the recent
passage of DC Statehood is remarkable, however while residents may
have a vote in Congress, what good is a vote for representation when there
is no due process of law in civil action branch matters, leaving petitioner
mesmerized over the idea that justice will bend towards a moral arc but
where's liberty when her pursuit of happiness has been glitch out and
lingers on. The greatest test of the American experiment is now, and
petitioner has been observing from various dockets the rule of law that
has peculiar position for due process of law.
CONCLUSION
For the foregoing reasons, the petition for rehearing should be granted.

Respectfully submitted,
din /1,7 202I

Mir~dy J. Mill
Petitioner

No. 20-7084

CERTIFICATE OF COUNSEL
I,

Mindy Hill, hereby certify that the petition for rehearing is presented in

good faith and not for delay, and that it is restricted to the grounds specified
in SC Rule 44, and 2584 word count.

Mindy J. Hill
1723 27th Street SE #302
Washington, DC 20020

